LAW OFFICES
BROWN, READDICK, BUMGARTNER,
CARTER, STRICKLAND & WATKINS, LLP

5 Glynn Avenue
Post Office Box 220
Brunswick, Georgia 31521-0220
G. Todd Carter (912) 264-8544 Of Counsel:
Richard K. Strickland Fax - (912) 264-9667 J. Thomas Whelchel
Bradley J. Watkins
Paul M. Scott Retired:
Steven G. Blackerby Richard A. Brown, Jr.
Eric L. Bumgartner Terry L. Readdick
Emily R. Hancock John E. Bumgartner
Sean K. Sally
Amanda L. Szokoly

February 18, 2020

Mr. Scott S. Harris, Clerk

Supreme Court of the United States
One First Street, N.E.

Washington, DC 20543

Re: Amy Corbitt v. Michael Vickers
Number: 19-679

Dear Mr. Harris:
I represent Respondent Michael Vickers in the above-referenced matter.

Currently, my client’s response to the Petition for Writ of Certiorari is due March 9, 2020.
Previously, my client had requested and obtained one thirty (30) day extension of the time to file the
response pursuant to Supreme Court Rule 30.4.

I respectfully request a thirty (30) day extension of time pursuant to Supreme Court Rule 30.4,
which would make the new deadline April 8, 2020. The reasons for the request are the following:

Ihave two jury trials scheduled for the week of March 9, 2020 (one in Jeff Davis County Superior
Court and one in Coffee County Superior Court). At least one of those scheduled trials will be reached,
if not both.

Lalso have a trial scheduled to begin March 16, 2020 in Glynn County Superior Court. My trial
preparation with regard to those three matters has limited, and will limit, the time I can devote to preparing
the response brief in Corbitt to some extent.

The extension of time would allow me the ability to devote the time necessary to complete the
response to the Petition.

Accordingly, I request a thirty (30) day extension of time in which to file the response to the
Petition for Writ of Certiorari. With a thirty (30) day extension, the response deadline would be April 8,
2020. I do not know the position of the Petitioner with regard to this request as I emailed counsel early
yesterday afternoon, but have not heard back. Nevertheless, I did not want to wait any longer to make this
request.
Mr. Scott S. Harris, Clerk
February 18, 2020
Page Two

 

Please let me know of any questions or concerns. Thank you for your consideration.

  

With best regards,
Sincerely,
BROWN, READDICK, BUMGARTNER,
CARTER, STRICKLAND & , LLP
Richard K/ Strickland
RKS:lla

ce: Paul Whitfield Hughes, Esquire
